                                                       December 9, 2013

The Honorable Carolyn W. Colvin
Acting Commissioner

The Chief Financial Officers Act of 1990 (CFO) (Pub. L. No. 101-576), as amended, requires that the Social
Security Administration’s (SSA) Inspector General (IG) or an independent external auditor, as determined by the IG,
audit SSA's financial statements in accordance with applicable standards. Under a contract monitored by the Office
of the Inspector General (OIG), Grant Thornton, LLP, an independent certified public accounting firm, audited
SSA's Fiscal Year (FY) 2013 financial statements. Grant Thornton, LLP, also audited the FY 2012 financial
statements presented in SSA’s FY 2013 Agency Financial Report for comparative purposes. This letter transmits
the Grant Thornton, LLP, Independent Auditor’s Report on the audit of SSA’s FY 2013 financial statements. Grant
Thornton, LLP’s, Report includes the following.

     ·    Opinion on Financial Statements
     ·    Opinion on Management's Assertion About the Effectiveness of Internal Control
     ·    Report on Compliance and Other Matters

Objective of a Financial Statement Audit
The objective of a financial statement audit is to obtain reasonable assurance that the financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes an assessment of the accounting principles used, and
significant estimates made, by management as well as an evaluation of the overall financial statement presentation.

Grant Thornton, LLP, conducted its audit in accordance with auditing standards generally accepted in the United
States; Government Auditing Standards issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements. The
audit included obtaining an understanding of the internal control, testing and evaluating the design and operating
effectiveness of the internal control, and performing such other procedures as considered necessary under the
circumstances. Because of inherent limitations in any internal control, misstatements due to error or fraud may
occur and not be detected. The risk of fraud is inherent to many of SSA’s programs and operations, especially
within the Supplemental Security Income program. In our opinion, people outside the organization perpetrate most
of the fraud against SSA.

Audit of Financial Statements, Effectiveness of Internal Control, and Compliance
with Laws and Regulations
Grant Thornton, LLP, issued an unmodified opinion 1 on SSA’s FY 2013 and 2012 financial statements. Grant
Thornton, LLP, also reported that SSA was maintaining effective internal control over financial reporting as of
September 30, 2013 based on criteria under OMB Circular A-123, Management’s Responsibility for Internal
Control, and the Federal Manager’s Financial Integrity Act of 1982 (FMFIA).


1
 Grant Thornton, LLP, issued an unqualified opinion on SSA’s FY 2012 financial statements. The American Institute of
Certified Public Accountants (AICPA) generally accepted auditing standard AU-C section 700.19 requires the auditor to express
an “unmodified opinion” when the auditor concludes that the financial statements are presented fairly, in all material respects, in
accordance with the applicable financial reporting framework for audits of financial statements ending on or after
December 15, 2012. For consistency, we will refer to an unqualified opinion as an “unmodified opinion” for all fiscal years.
Page 2 - The Honorable Carolyn W. Colvin


However, Grant Thornton, LLP, did identify two significant deficiencies in internal controls.

Significant Deficiency – Information Systems Control

It is Grant Thornton, LLP’s, opinion that SSA made significant progress in strengthening controls over its
information systems to address the material weakness reported in FY 2012. While SSA made these significant
efforts to strengthen controls over its systems and address weaknesses, Grant’s Thornton, LLP’s, FY 2013 testing
continues to identify control issues in both design and operation of key controls. In its audit, Grant Thornton, LLP,
identified four deficiencies that, when aggregated, are considered to be a significant deficiency in the areas of
Information Systems Control. Specifically, Grant Thornton, LLP’s, testing disclosed

    1.   lack of a comprehensive Agency-wide policies and procedures related to vulnerability management,
         including security vulnerability identification, prioritization, categorization, remediation, tracking, and
         closure/validation;
    2.   lack of comprehensive Agency-wide policies and procedures related to management of application and
         system software changes, including identification of all critical types of changes, security categorization
         and risk analysis for changes, testing requirements based on risk and requirements for the review and
         approval of testing results;
    3.   lack of controls related to the identification and monitoring of high-risk programs operating on the
         mainframe; and
    4.   weaknesses in logical access controls, such as access authorization, access removal, profile content, and
         analysis review program and supporting profile controls.

Significant Deficiency – Calculation, Recording, and Prevention of Overpayments

In addition to the Information Systems Control significant deficiency, Grant Thornton, LLP, identified three
deficiencies in internal control that, when aggregated, are considered to be a significant deficiency related to
weaknesses in internal controls related to Calculation, Recording, and Prevention of Overpayments. Specifically,
Grant Thornton, LLP’s, testing disclosed

    1.   overpayment calculation errors with 38 percent of items selected in its statistical sample;
    2.   system limitations where overpayment receivable installments extending past year 2049 are not
         systematically tracked and reported; and
    3.   a control failure where SSA was not reconciling key data fields between SSA internal databases, resulting
         in overpayment errors.

Grant Thornton, LLP, identified no reportable instances of noncompliance with the laws, regulations, or other
matters tested.

OIG Evaluation of Grant Thornton, LLP, Audit Performance
To fulfill our responsibilities under the CFO Act and related legislation for ensuring the quality of the audit work
performed, we monitored Grant Thornton, LLP’s, audit of SSA's FY 2013 financial statements by

    ·    reviewing Grant Thornton, LLP’s, audit approach and planning;
    ·    evaluating its auditors qualifications and independence;
    ·    monitoring the audit’s progress at key points;
    ·    examining Grant Thornton, LLP’s, documentation related to planning the audit, assessing SSA's internal
         control, and substantive testing;
    ·    reviewing Grant Thornton, LLP’s, audit report to ensure compliance with Government Auditing Standards
         and OMB Bulletin No. 14-02;
Page 3 - The Honorable Carolyn W. Colvin


    ·   coordinating the issuance of the audit report; and
    ·   performing other procedures we deemed necessary.

Grant Thornton, LLP, is responsible for the attached auditor’s report, dated December 9, 2013, and the opinions and
conclusions expressed therein. The OIG is responsible for technical and administrative oversight regarding Grant
Thornton, LLP’s, performance under the terms of the contract. Our review, as differentiated from an audit in
accordance with applicable auditing standards, was not intended to enable us to express, and, accordingly, we do not
express an opinion on SSA’s financial statements, management’s assertions about the effectiveness of its internal
control over financial reporting, or SSA’s compliance with certain laws and regulations. However, our monitoring
review, as qualified above, disclosed no instances where Grant Thornton, LLP, did not comply with applicable
auditing standards.

Consistent with our responsibility under the Inspector General Act, we are providing copies of this report to
appropriate congressional committees with oversight and appropriation responsibilities over SSA. In addition, we
will post a copy of the report on our public Website.




                                                         Patrick P. O’Carroll, Jr.
                                                         Inspector General

Enclosure
                                                                                           Audit – Tax – Advisory
                                                                                           Grant Thornton LLP
                                                                                           333 John Carlyle Street, Suite 400
                                                                                           Alexandria, VA 22314-5745
                                                                                           T 703.837.4400
                                                                                           F 703.837.4455
                                                                                           www.GrantThornton.com

The Honorable Carolyn W. Colvin
Acting Commissioner
Social Security Administration

                                  INDEPENDENT AUDITOR’S REPORT
In our audit of the Social Security Administration (SSA), we found:

    ·    The consolidated balance sheets of SSA as of September 30, 2013 and 2012, the related consolidated
         statements of net cost and changes in net position, the combined statements of budgetary resources for the
         years then ended, the statements of social insurance as of January 1, 2013 and January 1, 2012 and
         statement of changes in social insurance amounts for the periods January 1, 2012 to January 1, 2013 and
         January 1, 2011 to January 1, 2012 are presented fairly, in all material respects, in conformity with
         accounting principles generally accepted in the United States of America;
    ·    Management fairly stated that SSA’s internal control over financial reporting was operating effectively as
         of September 30, 2013; and
    ·    No reportable instances of noncompliance with laws, regulations, or other matters tested.

The following sections outline each of these conclusions in more detail.

OPINION ON FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheets of SSA as of September 30, 2013 and 2012, the
related consolidated statements of net cost and changes in net position, the combined statements of budgetary
resources for the years then ended, the statements of social insurance as of January 1, 2013, January 1, 2012,
January 1, 2011, and January 1, 2010 and the statements of changes in social insurance amounts for the periods
January 1, 2012 to January 1, 2013 and January 1, 2011 to January 1, 2012. The statement of social insurance as of
January 1, 2009 was audited by other auditors whose reports dated November 9, 2009 expressed an unmodified
opinion on those statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in accordance with
accounting principles generally accepted in the United States of America; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements that are
free from material misstatement, whether due to fraud or error.
Auditor’s Responsibility

Our responsibility is to express an opinion on these financial statements based on our audits. We conducted our
audits in accordance with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and Office of Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal
Financial Statements. Those standards and OMB Bulletin No. 14-02 requires that we plan and perform the audit to
obtain reasonable assurance about whether the financial statements are free of material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the financial
statements. The procedures selected depend on the auditor’s judgment, including the assessment of the risks of
material misstatement of the financial statements, whether due to fraud or error. In making those risk assessments,
the auditor considers internal control relevant to the entity’s preparation and fair presentation of the financial
statements in order to design audit procedures that are appropriate in the circumstances. An audit also includes
evaluating the appropriateness of accounting policies used and the reasonableness of significant accounting
estimates made by management, as well as evaluating the overall presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a reasonable basis for
our opinion.

Opinion

In our opinion, the financial statements referred to above and presented on pages 40 through 74 of this Agency
Financial Report (AFR), present fairly, in all material respects, the financial position of SSA as of September
30, 2013 and 2012, its net cost of operations, changes in net position, and budgetary resources for the years then
ended, the financial condition of its social insurance program as of January 1, 2013, January 1, 2012,
January 1, 2011, and January 1, 2010 and changes in social insurance amounts for the period January 1, 2012 to
January 1, 2013 and January 1, 2011 to January 1, 2012, in conformity with accounting principles generally
accepted in the United States of America.

As discussed in Note 17 to the financial statements, the statements of social insurance present the actuarial present
value of SSA's estimated future income to be received from or on behalf of the participants and estimated future
expenditures to be paid to or on behalf of participants during a projection period sufficient to illustrate long-term
sustainability of the social insurance program. In preparing the statement of social insurance, management considers
and selects assumptions and data that it believes provide a reasonable basis for the assertions in the statements.
However, because of the large number of factors that affect the statement of social insurance and the fact that future
events and circumstances cannot be known with certainty, there will be differences between the estimates in the
statement of social insurance and the actual results, and those differences may be material.

OPINION ON MANAGEMENTS ASSERTION ABOUT THE EFFECTIVENESS OF INTERNAL CONTROL
We have examined managements assertion as of September 30, 2013, based on criteria established under 31 U.S.C.
3512(c), (d), the Federal Managers’ Financial Integrity Act of 1982 (FMFIA), and the OMB Circular No. A-123,
Management’s Responsibility for Internal Control. We did not test all internal controls, relevant to the operating
objectives broadly, defined by FMFIA. SSA’s management is responsible for maintaining effective internal control
over financial reporting and for its assertion of the effectiveness of internal control over financial reporting included
in the accompanying FMFIA Assurance Statement on page 31 of this AFR. Our responsibility is to express an
opinion on managements assertion based on our examination.

We conducted our examination in accordance with attestation standards established by the AICPA; and internal
control audit requirements included in OMB Bulletin No. 14-02. Attestation standards require that we plan and
perform the examination to obtain reasonable assurance about whether effective internal control over financial
reporting was maintained in all material respects. Our examination included obtaining an understanding of internal
control over financial reporting, assessing the risk that a material weakness exists, testing and evaluating the design


                                                                                                                          2
and operating effectiveness of internal control based on the assessed risk, and performing such other procedures as
we considered necessary in the circumstances. We believe that our examination provides a reasonable basis for our
opinion.

An Agency’s internal control over financial reporting is a process affected by those charged with governance,
management, and other personnel, designed to provide reasonable assurance regarding the preparation of reliable
financial statements in accordance with generally accepted accounting principles. An Agency’s internal control over
financial reporting includes those policies and procedures that ( 1 ) pertain to the maintenance of records that, in
reasonable detail, accurately and fairly reflect the transactions and dispositions of the assets of the Agency;
( 2 ) provide reasonable assurance that transactions are recorded as necessary to permit preparation of financial
statements in accordance with generally accepted accounting principles, and that receipts and expenditures of the
Agency are being made only in accordance with authorizations of management and those charged with governance;
and ( 3 ) provide reasonable assurance regarding prevention, or timely detection and correction of unauthorized
acquisition, use, or disposition of the Agency’s assets that could have a material effect on the financial statements.

Because of its inherent limitations, internal control over financial reporting may not prevent, or detect and correct
misstatements. Also, projections of any evaluation of effectiveness to future periods are subject to the risk that
controls may become inadequate because of changes in conditions, or that the degree of compliance with the
policies or procedures may deteriorate.

A deficiency in internal control over financial reporting exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned functions, to prevent or detect
and correct misstatements on a timely basis.

A material weakness is a deficiency, or a combination of deficiencies, in internal control over financial reporting,
such that there is a reasonable possibility that a material misstatement of the Agency's financial statements will not
be prevented, or detected and corrected on a timely basis. No deficiencies in internal control were identified that
were considered material weaknesses. However, material weakness may exist that have not been identified.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control over financial reporting
that is less severe than a material weakness, yet important enough to merit attention by those charged with
governance. We identified certain deficiencies that, in the aggregate, are considered a significant deficiency in the
areas of Information Systems Controls and Controls over Calculation, Recording and Prevention of Overpayments.

                   SIGNIFICANT DEFICIENCY - INFORMATION SYSTEMS CONTROLS
SSA’s business processes which generate the information included in financial statements are dependent upon the
Agency’s information systems. A comprehensive and effective internal control program over these systems is
paramount to the reliability, integrity, and confidentiality of data while mitigating the risk of errors, fraud, and other
illegal acts.

Overview

Management relies extensively on information systems operations for the administration and processing of the
Title II and Title XVI programs, to both process and account for their expenditures, as well as for financial
reporting. Internal controls over these environments are essential for the reliability, integrity, and confidentiality of
the program’s data and mitigate the risks of error, fraud and other illegal acts.

Our internal control testing covered both general and application controls. General Controls encompass the
entity-wide security program (EWSP), access controls (physical and logical), configuration and change
management, segregation of duties, and service continuity/contingency planning. General controls provide the
foundation for the integrity of systems including applications and the system software which make up the general
support systems of the major applications. General controls, combined with application level controls, are critical to
ensure accurate and complete processing of transactions and integrity of stored data. Application controls include


                                                                                                                            3
controls over input, processing of data, and output of data as well as interface, master file, and other user controls.
These controls provide assurance over the completeness, accuracy, and validity of data. Our examination included
testing of the Agency’s mainframe, networks, databases, applications, and other supporting systems and was
conducted at headquarters, as well as, off-site locations such as Disability Determination Services (DDS) Centers
and field offices (FOs).

Deficiencies Noted in Information Systems

SSA made significant progress in strengthening controls over its information systems to address the material
weakness reported in FY 2012. In response to the material weakness SSA developed functional remediation teams
to investigate issues, identify root causes, and implement corrective actions. Each functional remediation team, with
oversight from SSA leadership, took risk-based approaches to remediation—addressing higher risk areas
immediately, and planning for future security enhancements. Management’s risk based approach included
correction of vulnerabilities identified through our specific tests, as well as, development and implementation of
institutionalized and repeatable processes to prevent future weaknesses.

While SSA made these significant efforts to strengthen controls over its systems and address weaknesses, our
FY 2013 testing continues to identify control issues in both design and operation of key controls. We believe that in
many cases these deficiencies continue to exist because of one or a combination of the following:

    ·    Control enhancements and newly designed controls require additional time to effectuate throughout the
         environment;
    ·    By focusing resources on higher risk weaknesses, SSA was unable to implement corrective action for all
         aspects of the prior year issues; and/or
    ·    The design and/or operational effectiveness of enhanced or newly designed controls did not completely
         address risks.

We noted deficiencies in the following areas that contribute to the significant deficiency:

    ·    Threat Identification and Vulnerability Management
    ·    Change Management
    ·    Mainframe Security
    ·    Access Controls/Segregation of Duties

Threat Identification and Vulnerability Management

Software should be scanned and updated frequently to guard against security threats. Effective vulnerability and
patch management as well as virus protection programs ensure that security threats are identified, risks are assessed,
and actions are taken to prevent inappropriate access or software errors within an organization’s Information
Technology environment. Our testing identified the following issue:

    ·    Lack of a comprehensive Agency-wide policy and procedures related to vulnerability management,
         including security vulnerability identification, prioritization, categorization, remediation, tracking, and
         closure/validation.

         During our internal penetration testing we were able to take advantage of software vulnerabilities,
         misconfigurations, and restricted information and ultimately assume control over two servers, the Windows
         domain, as well as, gaining access to the mainframe without detection. This is the third successive year we
         have gained control of the SSA Windows system without detection. During subsequent assessments of the
         Agency’s overall vulnerability management process, we noted that a key scanning tool was not being fully
         used to identify vulnerabilities across SSA’s network, and that Agency-wide comprehensive policies and
         procedures on vulnerability management were not established.

                                                                                                                          4
        The Agency corrected the specific software vulnerabilities identified during our penetration testing,
        developed configuration standards for the software, and began using more capabilities of the scanning tool.
        However, without a comprehensive process in place, security threats may not be appropriately prioritized
        and remediated.

Change Management

Change management processes provide assurance that software, data, and other changes associated with information
systems are approved and tested so they do not introduce functional or security risks. A disciplined process for
testing, approving, and migrating changes between environments, including into production, is essential to ensure
that systems operate as intended and that no unauthorized changes are implemented. Our testing identified the
following issue:

    ·   Lack of comprehensive Agency-wide policy and procedures related to management of application and
        system software changes, including identification of all critical types of changes, security categorization
        and risk analysis for changes, testing requirements based on risk and requirements for the review and
        approval of testing results.

        While our testing demonstrated that change management activities were occurring for both application and
        system software changes, the Agency had not fully documented a comprehensive policy and procedures
        covering the entirety of change management processes conducted by the Agency. Our testing noted the
        following:

          o   System Software - An impact/risk assessment to determine the security implications for mainframe
              changes did not occur. Further, for the majority of changes tested, we noted that developers were
              responsible for testing their own changes and implementing these changes into production. While
              Management performed a review to validate that updates made were associated with an approved
              change, there were no requirements nor guidance related to the types of testing to be performed
              (including security reviews), nor for retention or independent review of testing documentation, nor
              validation that the change made was limited to the requirements in the approved change ticket.
          o   Application Changes - We noted instances where evidence to support testing and other requirements
              could not be provided.

        These issues increase the risk that changes to applications and supporting system software, that may impact
        benefit claim processing, payments, or financial data, do not function as intended or introduce security
        risks.

Mainframe Security

Mainframe system software includes programs that are essential to the effective functioning of the operating system.
Some of these programs act as an extension of the operating system and therefore are required to access restricted
functions and can override security. Maintaining an authorized listing of high risk programs and implementing
appropriate change and monitoring controls is essential to mainframe security. Our testing identified the following
issue:

    ·   Lack of controls related to the identification and monitoring of high-risk programs operating on the
        mainframe.

        The Agency had not finalized and fully implemented controls associated with ensuring that privileged
        programs have been approved, can only be modified appropriately, and pose no security risks.
        Management continues to make control enhancements, including but not limited to, identifying privileged
        programs, the review of privileged programs from a security perspective, access restrictions to all
        privileged programs, and change/monitoring control enhancements.



                                                                                                                      5
         Without appropriate controls, there is an increased risk that the security posture and controls may be
         bypassed or compromised.

Access Controls/Segregation of Duties

Access controls provide assurance that critical systems assets are physically safeguarded and that logical access to
sensitive applications, system utilities, and data is provided only when authorized and appropriate. These controls
mitigate the inherent risk that unauthorized users and computer processes cannot access sensitive data, as well as,
that users are not given access to system functions that could create a segregation of duties conflict. Weaknesses in
such controls can compromise the integrity of sensitive data and increase the risk that such data may be
inappropriately accessed and/or disclosed. Our testing identified the following issues with logical access controls:

    ·    Access Authorization

         Our testing identified control failures related to the appropriate completion of authorization forms.
         Included in these control failures were instances of new hires, transferred employees, and contractors.

    ·    Access Removal

         Our testing identified control failures related to the timely removal of logical access for terminated
         employees’ logical access to the mainframe, network, and other supporting systems. Included in these
         control failures were instances of SSA employees and state DDS employees who retained access after they
         were terminated. Additionally, SSA did not have an authoritative source to identify and manage all
         contractors and therefore was unable to supply actual departure dates for contractors to substantiate timely
         removal of access.

    ·    Profile Content and Analysis Review Program and Supporting Profile Controls

         SSA Management continues to make progress in assessing profile content to validate that profiles only
         provide access to the minimal resources required for users to complete job functions. However, SSA had
         not completed the review of all profiles that are relevant to critical applications and supporting systems nor
         had SSA completed other profile quality initiatives including, but not limited to, some control
         enhancements.

As a result of these deficiencies, we noted numerous issues of unauthorized and inappropriate access including
application developers (programmers) with unmonitored access to production data and application transactions,
access to key transactions and data, key change management libraries, and other sensitive system software
resources.

Recommendations

In order to mitigate the risks of the issues noted in the significant deficiency, management should consider:

    ·    Formally documenting comprehensive policies and procedures related to (1) threat identification and
         vulnerability management and (2) application and system software change management that addresses
         issues noted.
    ·    Developing a comprehensive program to identify and monitor high risk programs operating on the
         mainframe.
    ·    Analyzing current access authorization and removal processes to determine if current controls mitigate the
         risk of unauthorized access and modify controls considering automation and monitoring.
    ·    Continuing, as part of the SSA profile quality program, additional profile content reviews and other key
         profile improvement initiatives.



                                                                                                                        6
            SIGNIFICANT DEFICIENCY - CALCULATION, RECORDING AND PREVENTION
                                    OF OVERPAYMENTS

Overview

Benefit overpayments occur when beneficiaries receive payments beyond their entitled amount. Upon detection of
an overpayment, the agency records an accounts receivable with the public to reflect the amount due to SSA from
the beneficiary. Due to the nature of the benefit payment programs, SSA has extensive operations geographically
dispersed throughout the United States. Overpayment detection, calculation, and documentation can take place in
various places, including approximately 1,300 Field Offices (FOs) or eight Program Service Centers (PSCs).
Therefore, SSA has specific policies and procedures in place to ensure consistent treatment and documentation of
overpayments and the related accounts receivable balances. Since this process can be complex for some cases and
relies heavily on manual input, SSA’s adherence to its policies and procedures is critical to correct and timely
decisions, and accurately tracking balances. Management also relies heavily on its Information Technology
infrastructure, interfaces and controls to record and prevent erroneous payments.

Deficiencies in Overpayment Calculations and Records

Similar to prior years, Grant Thornton noted deficiencies in the documentation maintained around overpayments.
During the current year, we selected a statistical sample of overpayments and noted overpayment calculation errors
with 38 percent of the items selected. Although the impact of these errors is not deemed material, these errors
evidence further control weaknesses in the overpayment process, including inappropriate overpayment tracking.

Deficiencies in Overpayment Records and Tracking

Large overpayment balances are often paid back to SSA in monthly installments. Payments of these installments
can go beyond the year 2049. SSA has identified a systems limitation where receivable installments extending past
2049 are not tracked and reported systematically. Therefore, the accounts receivable balances related to these
overpayments is understated. The projected understatements are immaterial. This issue has been previously
discussed in Government Accountability Office (GAO) reports and continues to be studied by the agency.

During our testing of overpayments, we encountered samples where the 2049 situation contributed to manual errors.
While the agency is working on enhancing the capabilities to properly account for these receivables and updating
policies to avoid longer term repayment programs, failure to resolve the 2049 issue will continue to increase the
likelihood of manual errors as well as continue to understate accounts receivable balances.

Deficiencies in Overpayment Prevention

During our Computer Assisted Auditing Techniques (CAATs), we identified certain key data fields, such as Date of
Death, which did not agree between SSA internal databases. As a result, our testing detected overpayments issued
to a limited number of deceased individuals. While these cases were clearly immaterial to SSA financial statements,
they were indicative of a control failure where SSA was not reconciling data between systems to detect
discrepancies which could lead to payment errors. While overpayments occur for many reasons, SSA should take
all possible actions under their control to prevent and detect overpayments. Failure to detect overpayments results in
continued erroneous benefit payments and unrecorded corresponding accounts receivable. The longer an
overpayment goes undetected, the greater the overpayment balance becomes and the lower the chance of accounts
receivable collections.

Recommendations

In order to mitigate the risks of the issues noted in the significant deficiency, management should consider:




                                                                                                                     7
Deficiencies in Overpayment Calculations and Records

    ·    Performing a risk based analysis on current overpayment balances to detect and correct errors in existing
         overpayment balances, considering manual intervention, balance, and age.
    ·    Enhancing documentation requirements and improve overpayment documentation tools to ensure
         overpayments are completely, accurately, and timely documented by FOs or PSCs within the appropriate
         systems of record.
    ·    Increasing management review over manual transactions impacting overpayment balances.

Deficiencies in Overpayment Records and Tracking

    ·    Evaluating technical enhancements that will address payment plans that extend beyond the year 2049.
    ·    Evaluating changes in repayment plans to minimize future long term repayment plans.

Deficiencies in Overpayment Prevention

    ·    Enhancing periodic reconciliations between SSA data which can impact payment amounts.

In our opinion, management's assertion that SSA maintained effective internal control over financial reporting as of
September 30, 2013 is fairly stated, in all material respects, based on criteria established under FMFIA and OMB
Circular No. A-123.

REPORT ON COMPLIANCE AND OTHER MATTERS
The management of SSA is responsible for compliance with laws and regulations. As part of obtaining reasonable
assurance about whether the basic financial statements are free of material misstatement, we performed tests of
compliance with laws and regulations, including laws governing the use of budgetary authority, government-wide
policies and laws identified in Appendix E of OMB Bulletin No. 14-02, and other laws and regulations,
noncompliance with which could have a direct and material effect on the financial statements. Under the Federal
Financial Management Improvement Act of 1996 (FFMIA), we are required to report whether SSA’s financial
management systems substantially comply with the Federal financial management systems requirements, applicable
Federal accounting standards, and the United States Government Standard General Ledger at the transaction level.
To meet this requirement, we performed tests of compliance with FFMIA section 803(a) requirements.

We did not test compliance with all laws and regulations applicable to SSA. We limited our tests of compliance to
the provisions of laws and regulations cited in the preceding paragraph of this report. Providing an opinion on
compliance with those provisions was not an objective of our audit and, accordingly, we do not express such an
opinion.

The results of our test of compliance disclosed no instances of noncompliance with laws and regulations or other
matters that are required to be reported under Government Auditing Standards or OMB Bulletin No. 14-02, and no
instances of substantial noncompliance that are required to be reported under FFMIA.

Other Matters

The Management’s Discussion and Analysis (MD&A) included on pages 5 through 36, and the Required
Supplementary Information (RSI) included on pages 75 and 81 through 92 of this AFR are not a required part of the
basic financial statements but are supplementary information required by the Federal Accounting Standards
Advisory Board and OMB Circular A-136, Financial Reporting Requirements. This required supplementary
information is the responsibility of management. We have applied certain limited procedures to the required
supplementary information in accordance with auditing standards generally accepted in the United States of
America established by the AICPA. These limited procedures consisted of inquiries of management about the
methods of preparing the information and comparing the information for consistency with management’s responses


                                                                                                                       8
to our inquiries, the basic financial statements, and other knowledge we obtained during our audit of the basic
financial statements. We do not express an opinion or provide any assurance on the information because the limited
procedures do not provide us with sufficient evidence to express an opinion or provide any assurance.

Other Information

The other information included on pages 1 through 4, 37 through 39, 76 through 80, 93 through 95 and 105 to the
end of this AFR, is presented for purposes of additional analysis and is not a required part of the basic financial
statements. Such information has not been subjected to the auditing procedures applied in the audit of the basic
financial statements, and accordingly, we express no opinion on it.

Our report is intended solely for the information and use of management of SSA, the Office of the Inspector
General, the OMB, the Government Accountability Office, and Congress and is not intended to be and should not be
used by anyone other than these specified parties.




Alexandria, Virginia
December 9, 2013




                                                                                                                      9
